Audit of USAID/Ghana’s Distribution of P.L. 480
Title II Non-Emergency Assistance in Support of Its
Direct Food Aid Distribution Program

7-641-04-001-P

October 15, 2003




                   Dakar, Senegal
October 15, 2003

MEMORANDUM

FOR:           USAID/Ghana Director, Sharon Cromer

FROM:          RIG/Dakar, Lee Jewell III /s/

SUBJECT:	      Audit of USAID/Ghana’s Distribution of P.L. 480 Title II Non-
               Emergency Assistance in Support of Its Direct Food Aid
               Distribution Program (Report No. 7-641-04-001-P)


This is our report on the subject audit. In finalizing this report, we considered
your comments on our draft report and have included the entire management
comments as Appendix II of this report.


The report contains five recommendations including cost recovery of $224,439
to which you concurred in your response to the draft report. Based on your plans
and actions in response to the audit findings, management decisions have been
reached on all five recommendations. Please coordinate final actions on these
recommendations with the USAID’s Office of Management Planning and
Innovation (M/MPI).

I appreciate the cooperation and courtesies extended to the members of our
audit team during this audit.




                                                                                    1

(This page is intentionally left blank.)




                                           2

Table of     Summary of Results
                                                        5
Contents 

             Background                                                                 5


             Audit Objective
                                                           6

             Audit Findings 
                                                           6

                     Did USAID/Ghana, through its monitoring and oversight
                     activities, ensure that P.L. 480 Title II non-emergency
                     assistance programmed for direct food aid distribution programs
                     was delivered to the intended beneficiaries in accordance with
                     existing agreements?

                        More Consistent Site Visit Monitoring Is Needed 
              8

                        Data Quality Assessments Needed
                        For Annual Report Information                                   9

                        Outstanding Loss Claims Need Follow-Up 
                       11

             Management Comments and Our Evaluation 
                                  13

             Appendix I – Scope and Methodology 
                                      14

             Appendix II – Management Comments
                                        16




                                                                                             3

(This page is intentionally left blank.)




                                           4

Summary of   The objective of this audit was to determine if USAID/Ghana, through its
Results      monitoring and oversight activities, ensured that P.L. 480 Title II non-
             emergency assistance programmed for direct food aid distribution programs
             was delivered to the intended beneficiaries in accordance with existing
             agreements. (See page 6.)

             USAID/Ghana ensured that the direct food aid distribution programs delivered
             the food to the intended beneficiaries in accordance with existing agreements.
             The Mission conducted numerous site visits to project activities and
             documented the results in trip reports. During site visits, we verified that the
             Cooperating Sponsors (CSs) and partners distributed food to the intended
             beneficiaries in accordance with agreement provisions. During interviews
             with beneficiaries, they confirmed that they had received food in the past from
             the CSs. Another aspect of the monitoring includes the Mission receiving the
             required reports as appropriate from the CSs for review. In addition, the CSs
             have taken steps to improve their monitoring of the program, which include
             providing training, implementing a new tracking software, and creating a
             compliance unit to monitor the program. (See pages 6 and 7.)

             However, several areas in the monitoring of the P.L. 480 program need to be
             improved in order to monitor the program’s activities more effectively. The
             Mission needs to perform consistent site visits by developing a systematic
             plan to monitor program activities as well as to perform data quality
             assessments on information included in the Mission’s annual report. In
             addition, the Mission needs to follow up on $224,439 in outstanding loss
             claims. (See pages 8 through 11.)



Background   The Agricultural Trade Development and Assistance Act of 1954 (also known
             as P.L. 480), as amended many times, is the statutory authority for the Title II
             Food for Peace (FFP) Program. The intent of the legislation is to promote
             food security in the developing world through humanitarian and
             developmental uses of food assistance. Food security is satisfied when a
             nation's people have sufficient food to meet their dietary needs for a
             productive and healthy life.

             USAID/Ghana’s Title II program is administered by the FFP office. The
             Adventist Development and Relief Agency (ADRA) and Catholic Relief
             Services (CRS) participate as cooperating sponsors in the implementation of
             USAID/Ghana’s Title II direct food aid distribution program activities.
             ADRA has a food for work program, and CRS has programs in the following
             areas: school feeding, general relief, and maternal child health. The day-to-
             day operations of the program, including receiving and distributing the

                                                                                           5

                  commodities, is performed by staff (referred to as partners in this report) at the
                  various project sites.

                  Per USAID records, the Mission’s actual disbursements were $18.6 million in
                  fiscal year 2002 and planned disbursements of $17.1 million in fiscal year
                  2003 for the P.L. 480 Title II program.


Audit Objective   This audit is one of a series to be conducted worldwide of USAID’s P.L. 480
                  Title II program. The Performance Audits Division of USAID’s Office of
                  Inspector General is leading the audit. In accordance with its fiscal year 2003
                  audit plan, the Regional Inspector General, Dakar performed this audit to
                  answer the following audit objective:

                  Did USAID/Ghana, through its monitoring and oversight activities, ensure
                  that P.L. 480 Title II non-emergency assistance programmed for direct food
                  aid distribution programs was delivered to the intended beneficiaries in
                  accordance with existing agreements?

                  The audit specifically did not address other food aid programs such as
                  emergency food aid or monetized food assistance. Appendix I contains a
                  complete discussion of the scope and methodology of the audit.


                  Did USAID/Ghana, through its monitoring and oversight activities,
Audit Findings    ensure that P.L. 480 Title II non-emergency assistance programmed for
                  direct food aid distribution programs was delivered to the intended
                  beneficiaries in accordance with existing agreements?

                  USAID/Ghana ensured that the direct food aid distribution programs were
                  delivering the food to the intended beneficiaries in accordance with existing
                  agreements, but the Mission could have conducted more effective monitoring
                  and oversight. Evidence from audit field visits as well as mission
                  documentation supported food being distributed to the intended beneficiaries.
                  However, problems regarding the monitoring of the program included lack of
                  a systematic and consistent approach to site visits, lack of data quality
                  assessments performed, and lack of follow-up on outstanding loss claims.




                                                                                                  6

       Photo 1




Photo of Langbinsi preschool children receiving their school lunch
through the Catholic Relief Services school-feeding program.
(Photograph taken July 22, 2003)

To ensure that the food reached the intended beneficiaries, the USAID/Ghana
Food for Peace (FFP) office conducted and documented in trip reports
numerous site visits to Cooperating Sponsor (CS) activities and projects. Per
discussion with an USAID official, the Mission and the CSs are in contact at
least weekly to discuss the various aspects of the program. In addition, we
noted during site visits that the CSs and their partners were distributing food
to the intended beneficiaries. During interviews with various beneficiaries,
they confirmed that they had received food in the past from the CSs and
partners. As a part of the monitoring of the program, the Mission received
required reports as appropriate: project proposals, commodity call forwards,
commodity status and recipient status reports, commodity loss status reports,
and cooperating sponsors’ results reports. In addition, the CSs have recently
taken steps to improve documentation and monitoring of the program. The
Adventist Development and Relief Agency (ADRA) headquarters in Accra
provided training to field offices on documentation requirements. In addition,
ADRA will be implementing new software, which will track field projects;
this software will facilitate quarterly reporting as well. Catholic Relief
Services (CRS) created a compliance unit in fiscal year 2003 that is to monitor
the projects and to ensure the integrity of the programs. As a part of this
monitoring, the staff in the compliance unit examine project documentation
during site visits.

However, during fieldwork and site visits, several areas in the monitoring of
the program were found to be in need of improvement in order for the Mission
                                                                             7

to provide more effective and efficient oversight. This includes developing a
more consistent and systematic plan to perform site visits, performing data
quality assessments, and conducting follow-up on outstanding claims for
commodity losses.
              Photo 2




Photo of a baby being weighed during a Food-Assisted Child Survival
clinic in the Bongbini community. The women participating receive a
take-home ration of food when they are pregnant and after the baby is
born until the infant reaches six months of age. (Photo taken July 22,
2003)


More Consistent Site Visit
Monitoring is Needed

The Mission did not select or perform site visits in a manner that provided
consistent procedures to ensure adequate monitoring. This is contrary to
USAID guidance that establishing oversight and monitoring procedures is
essential to good food aid management. The inconsistent site visits performed
was due to a lack of a formal monitoring plan. As a result, the Mission cannot
assure that the selection and performance of site visits provide optimal benefit
with respect to monitoring.

Although site visits had been conducted, the Mission had not established
criteria to select sites for their monitoring visits. This would include criteria
                                                                               8

such as the type of food aid being provided, the dollar value of the assistance
and the size of the beneficiary population. Instead, the Mission selected the
locations for their visits on a haphazard basis. Additionally, the Mission had
not developed a checklist or other similar tool that would ensure consistency
in the items reviewed at various sites as well as comparability for subsequent
visits to the same site.

Chapter 9D of the USAID Handbook for P.L. 480 programs states that
establishment of oversight and monitoring procedures by the USAID Mission
is essential to good food aid management. This would include, but not be
limited to, developing procedures for various aspects of food aid distribution,
visits to distribution centers and warehouses, and timetables for submitting
required reports.

The lack of consistent site visit procedures is due to the fact that the Mission
had not developed a formal monitoring plan. Such a plan would provide
systematic procedures to be carried out for the selection and the performance
of every site visit. USAID/Ghana officials attributed the lack of more
structured program to oversight on their part as well as turnover in the FFP
office. In July, the FFP officer transferred to another mission, and the position
has not been filled on a permanent basis. Also, last year, the FFP specialist
with 24 years of experience left USAID/Ghana.

The lack of a structured approach and specific criteria for monitoring and
evaluating program activities prevents the mission from identifying site visits
that would provide optimal benefit. Furthermore, without checklists, there
may be lack of uniformity with respect to monitoring and documentation of
observations.

Therefore, to address the lack of consistent procedures during site visits that
would ensure systematic monitoring of program activities, the following
recommendation is made:

       Recommendation No. 1: We recommend that
       USAID/Ghana develop a monitoring plan that includes
       criteria to select sites to be visited and procedures for
       conducting those site visits including        appropriate
       checklists.


Data Quality Assessments 

Needed for Annual Report Information


The Mission did not perform required data quality assessments on CS
program activity information during the three year period prior to submission
to USAID headquarters as part of the annual reporting process. This was due

                                                                               9

to an oversight on the part of management, and as a result, the Mission could
not guarantee the accuracy of the information included in the annual report.

USAID/Ghana did not perform a data quality assessment on information
included in their FY 2003 annual report regarding CRS P.L. 480 Title II
activities. The Mission’s annual report included data directly extracted from
CRS reports on their school feeding program, including the number of
students enrolled in the school, the number that received lunch and the
number that received a take-home ration. However, according to Mission
staff, no specific procedures were in place to review the completeness and
accuracy of information reported by CRS or other CSs during the three year
period prior to including the data in the annual report.

The Automated Directives System (ADS) Section 203.3.5.2 states that data
reported to USAID/Washington must have had a data quality assessment at
some time within the three years before submission. When conducting data
quality assessments of data from implementing partners, the focus of the
assessment should be on the apparent accuracy and consistency of the data.

The lack of data quality assessments performed on P.L. 480 information
included in the annual report was due to an oversight on the part of
management.

As a result of not performing these assessments, the Mission has no assurance
as to the quality and accuracy of the data reported to USAID/Washington.
Our audit did not test the accuracy of the data furnished by the CS and
reported by the Mission. However, an examination of records at 17 sites
including the CS’s field offices and distribution sites revealed that at 11 of the
sites, the records were either incomplete or inaccurate. For example, ADRA
field office staff could not provide documentation to support figures reported
to USAID/Ghana on the survival of cashew seeds in their food for work
program. A similar situation was found at CRS project sites, where figures
included in monthly activity reports did not agree with source documents at
the project sites. Additionally, the tally cards used to record the receipt and
distribution of commodities at the project site did not agree with the physical
inventory. In some cases, documentation to support program activities did not
exist. For example, partner staff at one project site stated that they
periodically visited recipients to ensure the food was being used as intended,
but the visits were not documented. Also, the staff did not record the receipt
of cash collected for canteen fees to supplement the school feeding program.
Furthermore, at another project site, one staff member indicated she
periodically verified the inventory levels recorded by another staff member
who was solely responsible for receiving and overseeing the storage and
distribution of P.L. 480 commodities as well as maintaining the records.
While such a review could mitigate the risk associated with the lack of
segregation of duties (which could not be avoided due to the small number of

                                                                               10

project site staff), the results of her reviews and oversight activities were not
documented.

To address data quality assessments not being performed, the following
recommendation is made:

        Recommendation No. 2: We recommend that
        USAID/Ghana develop and implement procedures that
        provide reasonable assurance that data reported to
        Washington under its non-emergency assistance program
        have a data quality assessment performed at least once
        every three years.


Outstanding Loss Claims
Need Follow-Up

The Mission did not conduct follow-up activities to pursue the collection of
outstanding claims for loss of P.L. 480 commodities as required by USAID
Handbook 9. Mission staff was not aware of the steps needed to pursue
payment of the claims. As a result, $254,715 of loss claims was outstanding
at the conclusion of our field work in July 2003.

The Mission did not perform follow-up activities on outstanding claims for
losses of P.L. 480 commodities.1 The Mission tracked the reported losses
using a spreadsheet that was updated for new claims or when payments on
outstanding claims were made, and periodically forwarded the spreadsheet to
the Regional FFP Office in Dakar, Senegal. However, the Mission did not
conduct any follow-up with the CSs to determine the status of outstanding
claims filed against the CS or a third party responsible for the loss.

USAID Handbook 9, Part II, Chapter 10 discusses Commodity Losses,
Damage and Claims. Chapter 10D, Section 2b states that the Mission is
responsible for tracking reported losses in addition to meeting regularly with
the CSs to review the status of outstanding claims. Regulation 11, 22 Code of
Federal Regulations (CFR) 211.9 and Handbook 9, Chapter 10D, Section 3a
state that when claims against a third party have been made, the CS should
make every reasonable effort to collect the claim. This includes sending the
initial billing with three progressively stronger demands with not more than a
30-day interval between billings. If these efforts fail, legal actions should be
taken unless exempted for reasons such as the costs incurred to pursue the
claim would exceed the amount of the claim. Any proposed settlement for
less than the full amount of the claim must be approved by the Mission or the
Diplomatic Post. When the CS is responsible, the CS should pay the value of

1
  Losses include damage, spoilage and theft that occurs during transportation and storage once
the food has reached the intended country.
                                                                                            11

                          the commodities unless USAID determines that such loss or damage could not
                          have been prevented by proper exercise of the CS’s responsibility.

                          Mission staff was not aware of the steps needed to conduct the loss claims
                          follow-up. As a result of the loss claims not having follow-up performed,
                          $254,715 of loss claims dating back to 1998 was outstanding at the conclusion
                          of our field work in July 2003. As shown in Table 1 below, $208,611 is due
                          from third parties and $46,104 is due from CRS.


                          Table 1: Outstanding Loss Claims
                            Fiscal Year     Amount Due From                     Amount Due             Total Due
                                               Third Parties                     From CRS
                                2003                   $ 51,162                       $ 2,748            $ 53,910
                                2002                     40,754                          4,306             45,060
                                2001                     46,260                          4,724             50,984
                                2000                     52,852                          2,659             55,511
                                1999                      9,789                         31,283             41,072
                                1998                      7,794                            384              8,178
                                Total                 $ 208,611                      $ 46,1042          $ 254,7152


                          In order to address the need for conducting follow-up on outstanding loss
                          claims and to better ensure that funds due to the United States government are
                          collected, we make the following recommendations:

                                   Recommendation No. 3: We recommend that
                                   USAID/Ghana develop and implement procedures to
                                   provide reasonable assurance on the follow-up of all loss
                                   claims.

                                   Recommendation No. 4: We recommend that
                                   USAID/Ghana, make a determination and collect, as
                                   appropriate, the value of loss claims totaling $208,611
                                   reported by third parties.

                                   Recommendation No. 5: We recommend that
                                   USAID/Ghana make a determination and collect, as
                                   appropriate, the value of loss claims totaling $15,828
                                   reported by Catholic Relief Services.




2
 In its response to the draft report, USAID/Ghana provided evidence that it has already collected $30,276.47 from CRS.
Therefore, only $15,827.53 of the $46,104 from CRS is due. The total loss claims due is now $224,439.

                                                                                                                    12

Management       In its response to the draft report, USAID/Ghana agrees with four of the five
                 recommendations, and has provided justification why it does not agree with
Comments and
                 the fifth recommendation. Based on the Mission’s plans and actions,
Our Evaluation   management decisions have been reached on all recommendations. The status
                 of each recommendation follows.

                 Recommendation No. 1 recommends that USAID/Ghana develop a
                 monitoring plan that includes criteria to select sites to be visited and
                 procedures for conducting those site visits including appropriate checklists.
                 The Mission concurs with this recommendation and plans to develop a
                 Monitoring Plan by November 1, 2003. The plan will include selection criteria
                 as well as a checklist.

                 Recommendation No. 2 asks USAID/Ghana to develop and implement
                 procedures that provide reasonable assurance that data reported to Washington
                 under its non-emergency assistance program have a data quality assessment
                 performed at least once every three years. USAID/Ghana concurs with the
                 recommendation. The Mission plans to contract for a Data Quality
                 Assessment of the PL480 program by January 2004. Mission management
                 will ensure that subsequent assessments are conducted at least once every
                 three years.

                 Recommendation No. 3 suggests that USAID/Ghana develop and implement
                 procedures to provide reasonable assurance on the follow-up of all loss
                 claims. USAID/Ghana agrees with the recommendation. By November 30,
                 2003, the Mission will develop and implement procedures to ensure that bills
                 for collection are immediately issued whenever losses of PL480 commodities
                 are discovered.

                 Recommendation No. 4 requests USAID/Ghana to make a determination and
                 collect, as appropriate, the value of loss claims totaling $208,611 reported by
                 third parties. The Mission concurs with the recommendation. By October 15,
                 2003, the Mission plans to issue bills of collection to the cognizant
                 cooperating sponsors.

                 Recommendation No. 5 recommends that USAID/Ghana make a
                 determination and collect, as appropriate, the value of loss claims totaling
                 $46,104 reported by Catholic Relief Services. USAID/Ghana does not concur
                 with the amount. The Mission has provided evidence that $30,276.47 of the
                 $46,104 outstanding loss claims has already been collected. Therefore, the
                 outstanding amount is $15,827.53 for which the Mission plans to issue a bill
                 of collection by October 15, 2003. Recommendation No. 5 has been revised
                 accordingly.


                                                                                             13

                                                                                   Appendix I


Scope and     Scope
Methodology   The Regional Inspector General, Dakar conducted this audit in accordance
              with generally accepted government auditing standards. The purpose of the
              audit was to determine if USAID/Ghana, through its monitoring and oversight
              activities, ensured that P.L. 480 Title II non-emergency assistance
              programmed for direct food aid distribution programs was delivered to the
              intended beneficiaries in accordance with existing agreements. The audit was
              conducted at USAID/Ghana in Accra from July 11 - 25, 2003. Site visits were
              performed in six of the ten regions of the country: Northern, Central, Eastern,
              Greater Accra, Ashanti, and Brong Ahafo. The audit examined the two
              Cooperating Sponsors (CSs) that have direct food distribution activities in
              Ghana: Catholic Relief Services (CRS) and Adventist Development and
              Relief Agency (ADRA).
                          Photo 3




              Photo of auditor Ragip Saritabak performing a physical verification of
              commodities stored in an ADRA warehouse. (Photo taken on July 15,
              2003)

              The main focus of the audit was on program "mechanics" or tracing the
              movement of Food For Peace commodities from the port of entry to
                                                                                          14

warehouses and distribution centers and finally to program beneficiaries. The
scope of this audit included an examination of management controls
associated with the systems used by the Mission and its cooperating sponsor
to monitor the distribution of food aid under the program. The areas
examined included the review of commodity requests (i.e., call forwards),
reporting of distribution data or results, review and tracking of commodity
losses, field visits to storage facilities and distribution sites, and the systems in
place for tracking the receipt, storage and distribution of Title II commodities.

The audit specifically did not cover emergency food aid, food provided
through the World Food Program, or monetized food assistance. The audit
was directed at fiscal year 2002 and 2003 programs. Total program funding
was equal to $18.6 million in fiscal year 2002 and $17.1 million in fiscal year
2003; this information was not verified.

Methodology

USAID/Ghana works with four CSs in the PL 480 program. Only two of
these 4 CSs have direct food aid distribution: CRS and ADRA. As such, CRS
and ADRA were selected for review as a part of this audit. We randomly
selected CRS and ADRA projects to visit in regions with significant
concentrations of projects.

The methodology for the audit included reviewing appropriate documentation
and interviewing Mission and CS personnel. More specifically, we reviewed
criteria including applicable laws, regulations, Agency policy and guidance,
and mission policy related to the audit objective. In addition, we reviewed
approved CS program documents for the proposed controls over the
movement and distribution of commodities. We interviewed responsible
USAID Mission and CS personnel—both at the headquarters and field level—
concerning the organization and control systems for the areas of: planning;
commodity movement and distribution; review and approval of direct food aid
distribution projects; and accumulating and reporting statistical information on
program results. Site visits were performed to selected food aid storage sites
and distribution sites during which time CS personnel and beneficiaries were
interviewed. Finally, we reviewed results for Title II for both the Mission and
the CSs and verified the accuracy of reported results.

A materiality threshold was not established for this audit since it was not
considered to be applicable given the qualitative nature of the audit objective,
which focused on assessing the level of monitoring over the program.




                                                                                  15

                                                                                    Appendix II


Management
Comments
                             UNITED STATES OF AMERICA
                       AGENCY FOR INTERNATIONAL DEVELOPMENT
                                 MISSION TO GHANA

                                                                       E45/3 Independence Avenue

                                                                        (Next to Pegasus Building)

                                                                                  P. O. BOX 1630

                                                                               ACCRA - GHANA

                                                                            TELEPHONE 228440

                                                                                            228467

                                                                                            231939

                                                                              FAX : 233-21-231940

                                                                                     233-21 231937



Date:        September 30, 2003

To:          Lee Jewell III, RIG/DAKAR

From:        Sharon Cromer, Mission Director, USAID/Ghana /s/

Subject:     	 udit of USAID/Ghana’s distribution of P.L. 480 Title II Non-
             A
             Emergency Assistance in support of Its Direct Food Aid Distribution
             Program (Report No. 7-641-03-00X-P)


The purpose of this memo is to provide Mission's written comments on the subject
audit report.

Recommendation No. 1: We recommend that USAID/Ghana develop a monitoring plan
that includes criteria to select sites to be visited and procedures for conducting those site
visits including appropriate checklists.

 Mission's Comments:       Mission concurs with the audit recommendation.

Action to be taken: USAID/Ghana will develop a formalized Monitoring Plan by
November 1, 2003. This Monitoring Plan will include selection criteria (type of food
provided, dollar value of assistance, and the size of the beneficiary population) for
visiting specific project sites. In addition, the monitoring plan will include a checklist to
ensure consistency in the items reviewed at various sites as well as comparability for
subsequent visits.



                                                                                              16

Recommendation No. 2: We recommend that USAID/Ghana develop and implement
procedures that provide reasonable assurance that data reported to Washington under its
non-emergency assistance program have a data quality assessment preformed at least
once every three years.

Mission's comments: Mission concurs with the audit recommendation.

Action to be taken: USAID/Ghana will contract for a Data Quality Assessment of the PL-
480 program by January 2004. Mission management will ensure that subsequent
assessments are conducted at least once every three years.

Recommendation No. 3       We recommend that USAID/Ghana develop and implement
procedures to provide reasonable assurance on the follow-up of all loss claims.

Mission's comments: Mission concurs with the audit recommandation.

Action to be taken: By November 30, 2003, USAID/Ghana will develop and implement
procedures to ensure that Bills for collection are immediately issued whenever losses of PL 480
commodities are discovered.


Recommendation No. 4:         We recommend that USAID/Ghana, make a determination and
collect, as appropriate, the value of loss claims totaling $208,611 reported by third parties.

Mission's comments: Mission concurs with the audit recommendation.

Action to be taken: By October 15, 2003, USAID/Ghana will issue bills for collection to the
cognizant cooperating sponsors.


Recommendation No. 5:      We recommend that USAID/Ghana make a determination and
collect, as appropriate, the value of loss claims totaling $46,104 reported by Catholic
Relief Services.

Mission's comments: Mission does not concur with the value of loss claims totaling
$46,104 against CRS/Ghana for the fiscal years 1998 - 2003. In FY 2000, the Mission issued
a Bill for collection of $30,276.47 to CRS/Ghana and received a check in full seulement of
the bill. Mission concurs with the recommendation as to the remaining balance.

Action to be taken: By October 15, 2003, the Mission will issue a Bill for Collection to CRS/Ghana
for $15,827.53.




                                                                                               17

